                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                              JOB CORPS’ REPORTED PERFORMANCE MEASURES
                                              DID NOT COMPLY WITH ALL LEGISLATIVE
                                              REPORTING REQUIREMENTS




                                                                      Date Issued: March 23, 2009
                                                                    Report Number: 04-09-003-01-370
Department of Labor                                 March 2009
Office of Inspector General
Office of Audit                                     WHAT OIG FOUND
                                                    The Department did not fully comply with WIA
BRIEFLY…                                            and GPRA reporting requirements. As a result,
                                                    Congress, OMB and other decision makers may
Highlights of Report Number 04-09-003-01-370,
Job Corps’ Reported Performance Measures            have lacked some critical data for making
Did Not Comply With All Legislative Reporting       informed decisions regarding the Job Corps
Requirements, to the National Director, Office of   program.
Job Corps, dated March 23, 2009.
                                                    Although Job Corps collected the necessary
                                                    data to comply with the WIA reporting
WHY READ THE REPORT                                 requirement, Job Corps did not annually prepare
The Job Corps program assists eligible youths       a report for submission to Congress that
who need and can benefit from intensive             included the performance outcomes of each Job
programs in a group setting to become more          Corps center and the results for all performance
responsible, employable, and productive             measures.
citizens. Education, training, and support
services are provided to students, ages 16          We also found that Job Corps did not fully
through 24 at Job Corps centers.                    comply with OMB’s reporting requirements for
                                                    job placement outcomes. Job Corps did not
                                                    include all students who left the program in its
The Workforce Investment Act of 1998 (WIA),
                                                    reported job placement data, but instead only
requires the Secretary of Labor to annually
                                                    reported placement outcomes for students who
submit a report to Congress containing
                                                    had been enrolled for at least 60 days.
performance information on the Job Corps’
program and for each Job Corps center.
                                                    WHAT OIG RECOMMENDED
In addition, Congress enacted the Government
                                                    We recommend that the Job Corps National
Performance Results Act of 1993 (GPRA) to
                                                    Director comply with all WIA and OMB reporting
ensure program effectiveness and
                                                    requirements, and annually prepare the
accountability. To facilitate compliance with
                                                    performance report required by WIA for the
GPRA, the Office of Management and Budget
                                                    Secretary to submit to Congress.
(OMB) requires the Secretary to report on three
performance measures common to all Federally-
                                                    Job Corps acknowledged that no single
funded youth education and training programs:
                                                    consolidated report containing center-specific
(1) attainment of a high school degree or its
                                                    data for all WIA indicators of performance has
equivalent; (2) job placement rates; and (3)
                                                    been produced for submittal to Congress, but
literacy and numeracy gains.
                                                    believes such a report would be so large and too
                                                    labor intensive to be of value to stakeholders.
WHY OIG DID THE AUDIT                               Job Corps believes that it publishes all required
We conducted a performance audit of the Office      information on program performance and
of Job Corps performance measurement                outcomes, albeit in multiple formats. Job Corps
reporting system. Our audit objective was to        is waiting for guidance from OMB on the use of
determine if Job Corps’ reported performance        statistically adjusted data to compensate for
measures comply with all legislative reporting      inaccurate or inconsistent data Job Corps
requirements.                                       currently uses for reporting on the common
                                                    measure for job placement results.
READ THE FULL REPORT
To view the report, including the scope,
methodologies, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2009/04
-09-003-01-370.pdf
                                                    Job Corps’ Reported Performance Measures Did Not
                                                     Comply with All Legislative Reporting Requirements




Table of Contents
                                                                                                PAGE

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 1

 Finding -- Job Corps Did Not Report Performance Measures That Included
            All Legislative Reporting Requirements…………. .................................. 2

EXHIBIT

 A. Workforce Investment Act Requirements for Job Corps' Performance
    Measures………………………………..................................................….................9

APPENDICES

 A.   Background…………………………………… ........................................................ 13
 B.   Objective, Scope, Methodology, and Criteria.................................................... 15
 C.   Acronyms and Abbreviations…………………. .. .................................................17
 D.   Definitions……………………………………. ………………………………………...19
 E.   Agency Response to Draft Report……………… ......……………………………...21




                                                  U.S. Department of Labor – Office of Inspector General
                                                                     Report Number: 04-09-003-01-370
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




PAGE INTENTIONALLY LEFT BLANK




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
                                           Job Corps’ Reported Performance Measures Did Not
                                            Comply with All Legislative Reporting Requirements




U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210



March 23, 2009

                        Assistant Inspector General’s Report

Esther R. Johnson
National Director
Office of Job Corps
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

The Office of Inspector General (OIG) conducted a performance audit of the
Department of Labor’s (DOL) Office of Job Corps’ (Job Corps) performance
measurement reporting system. Our audit period covered July 1, 2005, to
September 30, 2008.

Job Corps operates 122 centers nationwide, offering a comprehensive array of career
development services to young women and men, ages 16 to 24, to prepare them for
successful careers. Job Corps is currently authorized under the Workforce Investment
Act of 1998 (WIA), Title I-C.

WIA requires the Secretary of Labor (Secretary) to annually submit a report to Congress
containing performance information on its program and for each Job Corps center. In
addition, Congress enacted the Government Performance Results Act of 1993 (GPRA)
to ensure program effectiveness and accountability. To facilitate compliance with
GPRA, the Office of Management and Budget (OMB) requires the Secretary to report
on three performance measures common to all Federally-funded youth education and
training programs: (1) attainment of a high school degree or its equivalent; (2) job
placement rates; and (3) literacy and numeracy gains.

We designed this audit to answer the following question:

1. Did Job Corps report performance measures that included all legislative reporting
   requirements?

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We determined the evidence
obtained provides a reasonable basis for our findings and conclusions based on our

                                         U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 04-09-003-01-370
                                          1
                                                         Job Corps’ Reported Performance Measures Did Not
                                                          Comply with All Legislative Reporting Requirements

audit objective. Our audit objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS AND FINDING

Objective – Did Job Corps report performance measures that included all
legislative reporting requirements?

Our audit found that Job Corps captured a vast array of performance data and had
multiple methods for reporting performance; however, Job Corps did not comply with all
legislative reporting requirements. Specifically, Job Corps did not annually prepare a
report for submission to Congress that included the performance outcomes of each Job
Corps center or the results for all performance measures as required by WIA. We also
found that Job Corps did fully comply with OMB’s reporting requirements for job
placement outcomes. Job Corps did not include all students who left the program in its
reported job placement data, but instead only reported placement outcomes for
students who had been enrolled for at least 60 days. As a result of this non-compliance
with legislative reporting requirements, Congress, OMB and other decision makers may
have lacked some critical data for making informed decisions regarding the Job Corps
program.

Finding – Job Corps Did Not Report Performance Measures That Included All
          Legislative Reporting Requirements.

While Job Corps captured a vast array of performance data and had multiple methods
for reporting performance measures, it did not comply with all legislative reporting
requirements. Specifically, Job Corps did not annually prepare performance measure
data for the Secretary to report to Congress that included performance results for each
Job Corps center, as required by WIA. Additionally, Job Corps did not provide sufficient
data to fully comply with OMB’s reporting requirement related to job placement
outcomes.

WIA Reporting Requirement

WIA Section 159(c)(3) states the following:

        REPORT.—The Secretary shall collect, and annually submit a report to
        the appropriate committees of Congress containing information on the
        performance of each Job Corps center, and the Job Corps program, on
        the core performance measures as compared to the expected
        performance level for each performance measure. . . . 1



1
 See Exhibit A for a complete list of the WIA performance measures that Job Corps must annually report to
Congress.

                                                       U.S. Department of Labor – Office of Inspector General
                                                                          Report Number: 04-09-003-01-370
                                                        2
                                                           Job Corps’ Reported Performance Measures Did Not
                                                            Comply with All Legislative Reporting Requirements

Although Job Corps collected the necessary data to comply with the WIA reporting
requirement, the annual report was not forwarded to the Secretary for submission to
Congress. Job Corps did produce internal performance reports that contained the
information required by WIA, and Job Corps’ officials indicated that those reports are
available to Congress or the general public upon request. The internal reports
produced on a regular basis are the Job Corps’ Annual Report, Monthly Report Cards
for each Job Corps center, and monthly management reports.

Secretary’s Order 09-2006 2 states, in part, that the submission of reports and
recommendations to the President and the Congress concerning the administration of
the Job Corps program is reserved to the Secretary. DOL’s standard operating
procedure for preparing required congressional reports, as described by the Acting
Secretary, is for the program agency – in this case, Job Corps – to prepare the report
and submit it to the Executive Secretariat for clearance through the Department. After
the report has been cleared, the Secretary then submits it to Congress. However, Job
Corps did not prepare the annual performance report for the Secretary to submit it to
Congress.

OMB Reporting Requirement

Congress enacted GPRA to ensure Federal program effectiveness and accountability.
To facilitate GPRA’s reporting requirement, OMB developed three common measures
for Federal programs that provide youth education and training, such as Job Corps.
Those common measures are: (1) students’ attainment of a high school degree or its
equivalent, (2) job placement rates, and (3) literacy and numeracy gains.

The job placement rates prepared by Job Corps to comply with OMB common measure
reporting did not include placement data for all students enrolled in the program.
Instead, Job Corps only reported placement outcomes for students who had been
enrolled for at least 60 days.

Job Corps faces several inherent limitations in collecting job placement data. Job Corps
uses surveys (which rely on locating students and getting them to respond) as its
primary method to collect job placement data. However, according to Job Corps,
getting most uncommitted students (students enrolled less than 60 days) to respond is
difficult. To augment the survey data, a national Job Corps contractor performs
matches between lists of former students and states’ quarterly wage data stored in the
national data base known as the Wage Record Interchange System (WRIS) 3 . However,
WRIS excludes data on individuals employed by non-profit institutions, religious orders,
and those self-employed, or enrolled in education. Job Corps’ officials stated another
limitation with the data – it does not indicate whether an individual has worked the
appropriate number of hours per week to meet the WIA definition of “placed.” Job
2
  Establishment of the Office of Job Corps within the Office of the Secretary; Delegation of Authority and Assignment
of Responsibility to its Director and Others, dated March 23, 2006.
3
  As of May 2008, all states’ data, with the exception of Hawaii, are stored in the WRIS with various levels of
consistency and availability of data.

                                                        U.S. Department of Labor – Office of Inspector General
                                                                           Report Number: 04-09-003-01-370
                                                         3
                                              Job Corps’ Reported Performance Measures Did Not
                                               Comply with All Legislative Reporting Requirements

Corps’ officials stated they do not have a cost effective method to capture job placement
rates for uncommitted students. Therefore, they are unable to provide complete
information when reporting job placement results for OMB’s common measures.

Job Corps did not provide complete performance measurement data in order to comply
with both the WIA performance measures and OMB’s common measures. Therefore,
Congress, OMB and other decision makers may have lacked some critical data for
making informed decisions regarding the Job Corps program.

Recommendation

We recommend that Job Corps:

1. Comply with all WIA and OMB reporting requirements, and annually prepare the
   performance report required by WIA for the Secretary to submit to Congress.

Job Corps Response

Job Corps acknowledged that no single consolidated report containing center-specific
data for all WIA indicators of performance was produced for submittal to Congress, but
stated that such a report would be so large and too labor intensive to be of value to
stakeholders. Job Corps believes that it publishes all required information on program
performance and outcomes, albeit in multiple formats, and this data provides Congress,
OMB and other decision makers the information needed to make informed decisions
regarding program performance and outcomes.

Regarding OMB reporting guidelines for common measures, Job Corps stated that
although it is required to report placements of all participants during the quarter after the
quarter of exit, the timeframe and scope for this indicator do not correspond with the
existing Job Corps placement reporting and follow-up survey systems. As a result,
OMB agreed to a variance in the reporting of placement data for Job Corps that would
be acceptable until alternate sources could be developed to report data as initially
required. Job Corps had initially determined that the use of Unemployment Insurance
Wage Records was the most cost effective method of obtaining the data to report on the
placement indicator. However, Job Corps identified limitations with the use of
Unemployment Insurance data and, therefore, has not yet been able to use the data for
reporting on the common measures placement indicator. Job Corps has developed an
alternate method that it believes would more accurately report its placement results, but
is awaiting guidance from OMB on the appropriateness of this method.




                                            U.S. Department of Labor – Office of Inspector General
                                                               Report Number: 04-09-003-01-370
                                             4
                                             Job Corps’ Reported Performance Measures Did Not
                                              Comply with All Legislative Reporting Requirements

Job Corps’ response to the draft report is included in its entirety as Appendix E.

OIG Conclusion

Job Corps’ acknowledgement that the agency does not produce a consolidated annual
report of its performance and outcomes for submission to Congress is clearly at odds
with the WIA reporting requirement. We believe a report consistent with the legislative
intent can be produced that would be valuable to Congress and other stakeholders. We
also encourage Job Corps to continue its efforts with OMB to find an alternate method
for reporting placement results.




Elliot P. Lewis




                                           U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 04-09-003-01-370
                                            5
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




PAGE INTENTIONALLY LEFT BLANK




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
              6
            Job Corps’ Reported Performance Measures Did Not
             Comply with All Legislative Reporting Requirements




Exhibit




          U.S. Department of Labor – Office of Inspector General
                             Report Number: 04-09-003-01-370
           7
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




PAGE INTENTIONALLY LEFT BLANK




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
              8
                                                    Job Corps’ Reported Performance Measures Did Not
                                                     Comply with All Legislative Reporting Requirements


                                                                                            Exhibit A

            WIA Reporting Requirements of Job Corps’ Performance Measures
WIA §159 (c) 3: The Secretary shall annually submit a report to Congress containing
information on each Job Corps center and the Job Corps program performance measures
compared to targeted or expected performance measures for:
        •   Core Performance Measures (Item Numbers 1 through 15) = 15
        •   Recruiter-related Measures (Item Numbers 16 and 17) = 2
        •   Additional Measures (Item Numbers 18 through 25) = 8
 Item




             WIA §159                                    Description

                                  CORE PERFORMANCE MEASURES
                            Number of graduates and rate of graduation analyzed by type of
 1            (c)(1)A       vocational training received and whether training was provided by a
                            national or local service provider.
                            Number of graduates entering into unsubsidized employment related to
                            technical training received in a Job Corps program (Job Training Match
 2                          (JTM)), analyzed by whether the training was provided by a national
                            service provider and by whether the placement was conducted by a
                            local or national service provider.
              (c)(1)B
                            Number of graduates entering into unsubsidized employment not
                            related to technical training received in a Job Corps program, analyzed
 3                          by whether the training was provided by a national service provider and
                            by whether the placement was conducted by a local or national service
                            provider.
                            Average wage received by graduates who entered unsubsidized
 4                          employment related to vocation training received through the Job
                            Corps program (JTM).
              (c)(1)C
                            Average wage received by graduates who entered unsubsidized
 5                          employment not related to vocation training received through the Job
                            Corps program.
                            Average wage received by graduates placed in unsubsidized
 6           (c)(1)D(i)     employment after completing the Job Corps program on the first day of
                            employment.
                            Average wage received by graduates placed in unsubsidized
 7           (c)(1)D(ii)
                            employment 6 months after the first day of employment.
                            Average wage received by graduates placed in unsubsidized
 8           (c)(1)D(iii)
                            employment 12 months after the first day of employment.
                            Number of graduates entering into unsubsidized employment and were
 9           (c)(1)E(i)     retained in unsubsidized employment for 6 months after the first day of
                            employment.
                            Number of graduates entering into unsubsidized employment and were
10           (c)(1)E(ii)    retained in unsubsidized employment for 12 months after the first day
                            of employment.



                                                  U.S. Department of Labor – Office of Inspector General
                                                                     Report Number: 04-09-003-01-370
                                                   9
                                                        Job Corps’ Reported Performance Measures Did Not
                                                         Comply with All Legislative Reporting Requirements

                                                                                                 Exhibit A
            WIA Reporting Requirements of Job Corps’ Performance Measures
                                     (Continued)
    Item



             WIA
                                                           Description
             §159
                             CORE PERFORMANCE MEASURES (Continued)
                          Number of graduates who entered unsubsidized employment for 32 hours
    11     (c)(1)F(i)
                          per week or more.
                          Number of graduates who entered unsubsidized employment for less than
    12     (c)(1)F(ii)
                          32 hours but more than 20 per week or more.
                          Number of graduates who entered unsubsidized employment for less than
    13     (c)(1)F(iii)
                          20 hours per week or more.
                          Number of graduates who entered post secondary education or advanced
    14      (c)(1)G
                          training programs, including apprenticeship programs, as appropriate.
    15      (c)(1)H       Number of graduates who attained job readiness and employment skills.

                                   RECRUITER-RELATED MEASURES
                          The number of enrollees retained in the program for 30 days after initial
    16
                          placement in the program.
              (c)2
                          The number of enrollees retained in the program for 60 days after initial
    17
                          placement in the program.
                                         ADDITIONAL MEASURES

    18       (d)(1)       Number of enrollees served.

    19       (d)(2)       Average level of learning gains for graduates and former enrollees 4 .

    20       (d)(3)       Number of former enrollees and graduates who entered the Armed Forces.

    21       (d)(4)       Number of former enrollees who entered post secondary education.
                          Number of former enrollees who entered unsubsidized employment related
    22
                          to the vocational training received through the Job Corps program (JTM).
             (d)(5)
                          Number of former enrollees who entered unsubsidized employment
    23
                          unrelated to the vocational training received.
                          Number of former enrollees and graduates who obtained a secondary
    24       (d)(6)
                          school diploma or its recognized equivalent 5 .
                          Number and percentage of dropouts from the Job Corps program including
    25       (d)(7)       the number dismissed under the zero tolerance policy described in section
                          152(b).



4
  In compliance with GPRA and OMB’s common measure reporting, this performance measurement is included in
DOL’s Annual Performance and Accountability Reports.
5
  Ibid.

                                                     U.S. Department of Labor – Office of Inspector General
                                                                        Report Number: 04-09-003-01-370
                                                      10
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




Appendices




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
              11
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




PAGE INTENTIONALLY LEFT BLANK




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
              12
                                            Job Corps’ Reported Performance Measures Did Not
                                             Comply with All Legislative Reporting Requirements

                                                                               APPENDIX A
BACKGROUND

The Job Corps program assists eligible youths who need and can benefit from intensive
programs in a group setting to become more responsible, employable, and productive
citizens. Education, training, and support services are provided to students, ages 16
through 24 at Job Corps centers. To operate the Job Corps program, Congress
appropriated $878 million for program year 2007 and almost $1.5 billion for program
year 2008. Contractors operate 94 centers nationwide while the Departments of Interior
and Agriculture operate another 28 centers via inter-agency agreements.

Prior to 2006, the Employment and Training Administration (ETA) was responsible for
the administration of Job Corps. Congress mandated in Section 102 of the Department
of Labor’s 2006 Appropriations that the Secretary of Labor establish and maintain an
Office of Job Corps within the Office of the Secretary. Secretary’s Order 09-2006
formally transferred Job Corps from ETA to the Office of the Secretary. This Order also
delegated authority and assigned responsibilities to the Director and other agency
heads to ensure the effective administration the Job Corps program.

Job Corps is identified in WIA as a publicly-financed program for providing job training
for youth. WIA Sections 159 (c) (1) and 159 (d) require that Job Corps report placement
and wage performance only for graduates and former enrollees. Congress enacted
GPRA in part to “improve Congressional decision making by providing more objective
information on achieving statutory objectives, and on the relative effectiveness and
efficiency of Federal programs and spending.” In 2001, the President announced a
Management Agenda that required a performance measurement system with one core
set of definitions and procedures across Federal programs with similar goals. To
facilitate GPRA, OMB developed these goals, referred to as “common measures.” The
common measures for programs serving youths, such as Job Corps, are: Placement in
Employment or Education; Attainment of a Degree or Certificate; and Literacy and
Numeracy Gains.

The Job Corps performance management and measurement system is designed to be
comprehensive and to accomplish three purposes. The purposes are to:

1. Meet Federal and legislative accountability requirements.
2. Assess centers’ and agencies’ accomplishments in implementing program priorities
   and serving students effectively.
3. Have a management tool that provides useful and relevant feedback on
   performance while encouraging continuous program improvement.




                                          U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 04-09-003-01-370
                                           13
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




PAGE INTENTIONALLY LEFT BLANK




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
              14
                                             Job Corps’ Reported Performance Measures Did Not
                                              Comply with All Legislative Reporting Requirements

                                                                                APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

1. Did Job Corps report performance measures that included all legislative reporting
   requirements?

Scope

We conducted a performance audit of Job Corps’ performance measurement reporting
system. This audit focused on whether Job Corps reported performance measures to
the Secretary to submit annual reports to Congress in accordance with WIA legislation
and OMB guidance. Our audit period covered July 1, 2005, to September 30, 2008.
Fieldwork was conducted at the Job Corps National Office in Washington, D.C.; Job
Corps’ regional offices in Atlanta, GA and Philadelphia, PA; and the Job Corps Data
Center located in Austin, TX.

In planning and performing our audit, we considered Job Corps’ internal controls over
collecting and reporting performance data. Our review of internal controls focused on
the controls related to our objective of assessing compliance with significant laws,
regulations, and policies and procedures for reporting performance measurements, and
not on the adequacy of internal controls overall.

We conducted our audit in accordance with Generally Accepted Government Auditing
Standards issued by the Comptroller General of the United States. An audit made in
accordance with these standards provides reasonable assurance that it will achieve the
objective; but it does not guarantee the discovery of illegal acts, abuse or all internal
control weaknesses. Providing an opinion of internal controls was not an objective of
our audit, and accordingly we do not express such an opinion. We conclude our audit
provides a reasonable basis for our assessment and conclusions.

Methodology

In order to answer our audit objective, we interviewed Job Corps staff in the Division of
Program Support and Accountability responsible for overseeing the performance
measurement system. Information regarding the performance reports generated was
also obtained from the Job Corps Data Center. Interviews at the regional offices
provided us with an understanding of the Job Corps program and the impact of
performance measures.

We examined the PRH, Chapter 5 – “Management,” Appendix 501, to determine what
performance measurements were reported and how they were calculated. Other
sections of the PRH were reviewed, as needed, to clarify information on operational
requirements and definitions. We reviewed Job Corps’ and the DOL’s 2004, 2005,

                                           U.S. Department of Labor – Office of Inspector General
                                                              Report Number: 04-09-003-01-370
                                            15
                                                         Job Corps’ Reported Performance Measures Did Not
                                                          Comply with All Legislative Reporting Requirements

2006, and 2007 Annual Reports to help us understand Job Corps’ mission, current and
future strategies, reported performance outcomes, and operations.

Based on WIA Title I, Subtitle C, Section 159, we identified 25 performance
measures/items 6 required to be reported to Congress annually. To determine whether
Job Corps collected all the necessary data to report the WIA requirements, we
compared the legislative reporting requirements with Job Corps’ Annual Report, Monthly
Report Cards, and monthly management reports. To determine the entity responsible
for complying with WIA’s reporting requirements; we reviewed the Secretary Order 09-
2006 and interviewed the Acting Secretary of Labor 7 to understand the Department’s
interpretation of the legislative performance reporting requirements.

To further determine DOL’s legislative performance reporting requirements, we
researched the relationship between the OMB, GPRA, the Program Assessment Rating
Tool (PART), and common measures. The GPRA law, various OMB documents, and
Training and Education Guidance Letters (TEGLs) issued by the ETA provided much of
this information. According to our research, TEGL Number 17-05 entitled, “Common
Measures Policy for ETA's Performance Accountability System and Related
Performance Issues” (dated February 17, 2006) specified the common measurements
required for Job Corps’ compliance with PART assessments which affect Congressional
budget decisions. The TEGL also identified acceptable forms of data collection and
clarified various terms.

To identify Job Corps’ process for collecting and validating placement data to comply
with OMB’s common measures reporting requirements, we reviewed relevant contracts
and interviewed representatives from one of the supporting contactors. We also
reviewed information specific to WRIS obtained from ETA’s website and from the Job
Corps National Office.

Criteria

Government Performance Results Act of 1993

Program Requirements Handbook (PRH), Chapter 5 – “Management,” Appendix 501

Training and Education Guidance Letter Number 17-05 entitled, “Common Measures
Policy for ETA's Performance Accountability System and Related Performance Issues”
(dated February 17, 2006)

Workforce Investment Act of 1998 (WIA), Title I-C



6
  We have displayed our interpretation of Job Corps’ performance reporting requirements as required by WIA Sections
159 (c) and (d) in Exhibit A of this report. Exhibit A displays a total of 25 performance reporting requirements.
7
  On February 4, 2009, President Obama designated Edward C. Hugler, Deputy Assistant Secretary for Administration
and Management, to perform the duties of the Office of Secretary of Labor.

                                                      U.S. Department of Labor – Office of Inspector General
                                                                         Report Number: 04-09-003-01-370
                                                       16
                                       Job Corps’ Reported Performance Measures Did Not
                                        Comply with All Legislative Reporting Requirements

                                                                          APPENDIX C

ACRONYMS AND ABBREVIATIONS

Director    Job Corps National Director

ETA         Employment and Training Administration

GPRA        Government Performance Results and Accountability Act of 1993

Job Corps   Office of Job Corps

JTM         Job Training Match

OIG         Office of the Inspector General

OMB         Office of Management and Budget

PART        Program Assessment Rating Tool

PRH         Program Requirements Handbook

Secretary   Secretary of Labor

TEGLs       Training and Education Guidance Letters

WIA         Workforce Investment Act of 1998

WRIS        Wage Record Interchange System




                                     U.S. Department of Labor – Office of Inspector General
                                                        Report Number: 04-09-003-01-370
                                      17
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




PAGE INTENTIONALLY LEFT BLANK




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
              18
                                                    Job Corps’ Reported Performance Measures Did Not
                                                     Comply with All Legislative Reporting Requirements

                                                                                       APPENDIX D
DEFINITIONS

Enrollee       Per WIA Section 142 (3), an individual who has voluntarily applied for, been
               selected for, and enrolled in the Job Corps program, and remains with the
               program, but has not yet become a graduate.
Former         Per WIA Section 142 (4), an individual who has voluntarily applied for, been
Enrollee       selected for, and enrolled in the Job Corps program, but left the program
               before completing the requirements of a vocational training program, or
               receiving a secondary school diploma or recognized equivalent, as a result of
               participation in the Job Corps program.

               The Job Corps National Office limits the definition of former enrollees to
               individuals who enrolled in Job Corps at least 60 days who did not complete
               a vocational training program nor attain a secondary school diploma or its
               recognized equivalent.

Graduate       Per WIA Section 142 (5), an individual who has voluntarily applied for, been
               selected for, and enrolled in the Job Corps program and has completed the
               requirements of a vocational training program, or received a secondary
               school diploma or recognized equivalent, as a result of participation in the
               Job Corps program.

               The Job Corps National Office limits the definition of graduates to individuals
               enrolled in Job Corps for at least 60 days and attained a secondary school
               diploma or its recognized equivalent or completed a vocational training
               program, or individuals who completed both while enrolled.
Placements     Recognized placements include employment, enrollment in an education or
               training program (including secondary school or a higher education program),
               enlistment in the military or a combination of work and school. Work and
               school activities require a specified number of hours per week to qualify as
               placements.

Uncommitted Students enrolled in Job Corps for less than 60 days (regardless of their
Students    achievement) and/or students who separated from Job Corps due to a
            violation of Job Corps’ Zero Tolerance policy against violence or drugs.




                                                  U.S. Department of Labor – Office of Inspector General
                                                                     Report Number: 04-09-003-01-370
                                             19
               Job Corps’ Reported Performance Measures Did Not
                Comply with All Legislative Reporting Requirements




PAGE INTENTIONALLY LEFT BLANK




             U.S. Department of Labor – Office of Inspector General
                                Report Number: 04-09-003-01-370
              20
                               Job Corps’ Reported Performance Measures Did Not
                                Comply with All Legislative Reporting Requirements

                                                                  APPENDIX E
AGENCY RESPONSE TO DRAFT REPORT




                             U.S. Department of Labor – Office of Inspector General
                                                Report Number: 04-09-003-01-370
                              21
  Job Corps’ Reported Performance Measures Did Not
   Comply with All Legislative Reporting Requirements




U.S. Department of Labor – Office of Inspector General
                   Report Number: 04-09-003-01-370
 22
  Job Corps’ Reported Performance Measures Did Not
   Comply with All Legislative Reporting Requirements




U.S. Department of Labor – Office of Inspector General
                   Report Number: 04-09-003-01-370
 23
                                     Job Corps’ Reported Performance Measures Did Not
                                      Comply with All Legislative Reporting Requirements




ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210


                                   U.S. Department of Labor – Office of Inspector General
                                                      Report Number: 04-09-003-01-370
                                    24
